OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/ANGOLA’S
PUBLIC-PRIVATE
PARTNERSHIPS FOR
DEVELOPMENT

AUDIT REPORT NO. 4-654-12-006-P
FEBRUARY 27, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


February 27, 2012

MEMORANDUM

TO:                  USAID/Angola Mission Director, Teresa McGhie

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Angola’s Public-Private Partnerships for Development
                     (Report No. 4-654-12-006-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them as appropriate.
Management comments have been included in their entirety in Appendix II.

This report includes nine recommendations to strengthen the mission’s public-private
partnerships. Based on management’s comments on the draft report, management decisions
have been reached on eight recommendations, and final action taken on five. Recommendation
7 remains open. Please provide us with a written response within 30 days on actions planned
or taken to implement Recommendation 7. Please also provide the Office of Audit Performance
and Compliance Division with the necessary documentation to achieve final action on
Recommendations 1, 2, and 4. Recommendations 3, 5, 6, 8, and 9 are closed upon report
issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Selected Partnerships Did Not Achieve Development Goals ................................................. 5

     Partners Did Not Benefit as Anticipated................................................................................. 8

     USAID/Angola Did Not Meet Performance Management Requirements .............................. 10

     USAID Did Not Ensure Program Costs Were Adequately Reviewed ................................... 12

     USAID/Angola Did Not Monitor Branding and Marking ........................................................ 14

Evaluation of Management Comments.................................................................................. 16

Appendix I—Scope and Methodology ................................................................................... 18

Appendix II—Management Comments .................................................................................. 21




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
CFR             Code of Federal Regulations
CLUSA           Cooperative League of the U.S.A.
FY              fiscal year
PMI             President’s Malaria Initiative
SUMMARY OF RESULTS
The goal of USAID’s public-private partnership model is to have “shared responsibility, joint
planning and decision making, new partners and new approaches, shared credit, and an equal
or greater ratio of partner funds to USG [U.S. Government] funds.”1 Since 2001, USAID’s
Global Development Alliance initiative has promoted strategic partnerships between USAID and
public and private sector partners as a business model for achieving development assistance
objectives. USAID programs get funds to increase the scale of activities and their impact;
partners are drawn to these partnerships by matching funds, and USAID’s experience in
developing countries, credibility, and contacts. Currently, the initiative is led by the Agency’s
Washington, D.C., Office of Innovation and Development Alliances, which seeks to coordinate
partnerships, build capacity in the Agency to develop partnerships, and serve as a single entry
point for interested partners.

Since the initiative’s inception, USAID has entered into more than 1,000 public-private
partnerships with over 3,000 partners to contribute billions in combined public-private
resources. USAID/Angola contributed to this initiative by quickly entering into partnerships
with international petroleum producers, Angolan banks, Brazilian construction companies, and
more. In the beginning, these partnerships were lauded as a new model of partnership with
Africa, consistent with USAID’s vision and objectives.

In fiscal year (FY) 2011, USAID/Angola reported having four active public-private partnerships—
two with Chevron and two with Esso Angola. Three partnerships were selected for this audit
and are described in detail below.2

Chevron. Under the partnership known as the Angola Partnership Alliance, USAID and
Chevron agreed to provide support for programs promoting municipal development, health,
education, and economic diversification.3 The two programs implemented under this alliance
are the Agriculture Development and Finance Program (locally branded as ProAgro) and the
Municipal Development Program.

ProAgro is implemented by the Cooperative League of the U.S.A. (CLUSA) under a cooperative
agreement with USAID that took effect on August 21, 2006. The program seeks to increase
market opportunities, improve competitiveness, foster sustainability, and increase benefits
derived by those in coffee, banana, and vegetable industries, while creating greater business
opportunities and capabilities for small and medium-scale farmers. Originally, the program was
to end on August 20, 2011, but a modification extended that date until September 30, 2012. As
of September 30, 2011, USAID had contributed $7.8 million to this program (compared with an
original estimated amount of $5.4 million), while Chevron had contributed $3 million.




1
  Acquisition and Assistance Policy Directive AAPD 04-16, December 30, 2004.
2
  The Ajuda de Desenvolvimento de Povo para Povo (Development Aid from People to People) Angola
Program was not selected for detailed review. This program has received $400,000 from Esso Angola
and supports the vocational training of young women in three Angolan provinces.
3
  Though the alliance permits funds to flow directly from Chevron to implementing partners, Chevron has
channeled funds first through USAID.


                                                                                                     1
The Municipal Development Program is implemented by CARE under a cooperative agreement
with USAID that took effect on July 19, 2006. The goal of this program is to increase the
accountability of municipal governments and improve community participation in decision-
making and oversight activities. This program was scheduled to end on July 18, 2009, but
modifications extended the award until March 31, 2012. As of September 30, 2011, USAID had
contributed $12 million to this program (from an original estimated amount of $10.9 million),
while Chevron had contributed $2.3 million. An additional $1 million was contributed by Lazare
Kaplan International, a diamond manufacturing and distribution company, in 2008. However,
this partner later pulled out of the alliance for economic reasons.

Esso Angola. Esso Angola funds USAID projects in Angola through grants from the
ExxonMobil Foundation. These grants are then given to USAID as conditional gifts (like the one
shown below), with stipulations on which activities should be funded.

As of September 30, 2011, Esso Angola had contributed $4 million to USAID’s activities under
the President’s Malaria Initiative (PMI), which seeks to reduce malaria-related deaths by
expanding coverage of prevention and treatment measures. In turn, USAID obligated, or is in
the process of obligating, these contributions to PMI activities in its health portfolio. This audit
focused on PMI activities under World Learning’s Civil Society Strengthening Program, to which
USAID had obligated $1.8 million of Esso Angola’s contributions and contributed $10.6 million of
its own funding as of September 30, 2011. The program began on July 10, 2006, and was to be
completed on December 31, 2011. The PMI activities under this program focus on the training
and supervision of health-care workers.




Esso Angola has used the presentation of large checks to promote the visibility of its partnership
with USAID. (Photo by Office of Inspector General, September 2011)




                                                                                                  2
The Regional Inspector General/Pretoria conducted this audit to determine whether the selected
USAID/Angola public-private partnerships were achieving their development goals. The audit
determined that:

   Selected partnerships did not achieve their development goals (page 5). For example, (1)
   CLUSA did not increase access to bank loans for its beneficiaries, because bank
   requirements for credit were insurmountable; (2) CARE did not meet all objectives to
   improve relationships and working models between municipal governments and their
   communities because of inadequate staffing, delays by provincial and municipal
   governments, and cancellation of subpartner development workshops because of
   noncompliance; and (3) PMI attempts to expand malaria prevention and treatment coverage
   in Angola through training and supervision were not sustainable at the end of the program.

   Partners did not benefit from partnerships as anticipated (page 8). The Global Development
   Alliance model for public-private partnerships notes that a well-constructed partnership
   furthers the objectives of the USAID mission while benefiting the interests of all partners.
   However, USAID/Angola did not plan partnerships to maximize potential benefits and
   minimize risks by (1) incorporating contingency plans into the memorandums of
   understanding and awards, to minimize the impact of partner shortfalls; (2) tracking
   contributions to measure partnership benefits; and (3) having a joint monitoring plan to
   optimize use of private partner resources and promote good partner relations.

Additionally, the audit disclosed the following:

   USAID/Angola did not meet performance management requirements in several areas (page
   10). Agreement officer’s technical representatives (AOTRs) are designated by the
   agreement officer to be responsible for monitoring the recipient's progress in achieving
   program objectives and for verifying that the recipient's activities being funded by USAID
   conform to the terms and conditions of its award. However, AOTRs did not (1) conduct
   regular site visits to all program locations in order to monitor recipients, (2) properly
   document site visits done, (3) perform required data quality assessments on reported
   performance indicators, (4) ensure timely reporting by implementing partners, or (5) maintain
   adequate files of program documents.

   USAID did not ensure that program costs were adequately reviewed (page 12). The
   Municipal Development Program was awarded to CARE on condition that the funds be
   administered in accordance with the terms and conditions set forth in the Code of Federal
   Regulations (22 CFR 226, “Administration of Assistance Awards to U.S. Non-Governmental
   Organizations”) and other regulations. However, CARE Angola’s financial management
   practices included several resisted attempts by CARE to get inappropriate cost approvals,
   and findings of questioned costs of $24,681 in the CARE Angola Municipal Development
   Program in a prior A-133 audit. Further, USAID determined in October 2010 that $1.7
   million in costs related to a CARE Angola program implemented from 2003 to 2005 were
   unallowable—facts that if promptly shared by the Agency might have disqualified CARE
   from getting further incremental funding.

   USAID/Angola did not monitor branding and marking (page 14). Ensuring that the American
   people are recognized appropriately for their generosity in funding U.S. foreign assistance
   has been a long-standing U.S. Government objective. Further, both Chevron and Esso
   Angola listed visibility as a key reason for entering into partnerships with USAID. However,

                                                                                              3
    the AOTRs were not monitoring implementing partners’ adherence to branding and marking
    plans. As examples, (1) ProAgro’s technical documents, such as baseline studies, market
    studies, and subsector analyses, were not branded with appropriate logos on the cover
    page; (2) nothing to promote the source of funding was at a CARE civil society conference
    the audit team attended; and (3) neither a USAID nor a Chevron logo was visible on
    program vehicles, as stipulated in the program’s branding and marking plan.

To help address these areas, the report recommends that USAID/Angola:

1. Designate an individual who is responsible for spearheading the mission’s efforts to build
   and manage strategic partnerships and for maintaining the mission’s relationship with the
   Office of Innovation and Development Alliances (page 10).

2. Review Mission Order 203 and update it to address performance management and
   evaluation requirements, including alternative monitoring activities to mitigate security
   constraints (page 12).

3. Remind staff members, in writing, of their responsibility to comply with Mission Order 203,
   until such guidance is superseded (page 12).

4. Develop and implement a strategy for addressing performance management requirements,
   given the human resources challenges the mission faces (page 12).

5. Remind CLUSA, in writing, of its responsibility to report on progress toward its results,
   including reporting on its performance indicators quarterly (page 12).

6. Remind AOTRs, in writing, of their responsibility to maintain adequate files (page 12).

7. Contract an independent accounting firm to conduct an agreed-upon procedures
   engagement4 of the Municipal Development Program’s expenditures (page 14).

8. Through the agreement officer, remind CARE Angola, in writing, of its obligation to retain
   records supporting program expenditures for at least 3 years (page 14).

9. Remind staff members, in writing, of their responsibilities to verify that implementers adhere
   to branding and marking requirements, in accordance with Automated Directives System
   (ADS) Chapter 320 (page 15).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are included in their entirety in Appendix II, and our
evaluation of management comments is included on page 16 of the report.




4
 This means contracting with a firm to report on the results of specific procedures requested by the
mission.


                                                                                                  4
AUDIT FINDINGS
Selected Partnerships Did Not
Achieve Development Goals
The audit focused on the partnerships supporting the following three programs.

ProAgro. In a 2009 memorandum of understanding, USAID, Chevron, and CLUSA committed
to help Angola diversify its economy by revitalizing small- and medium-scale commercial
farming and promoting agricultural development that is environmentally friendly, socially just,
and economically sustainable. Accordingly, the goal of ProAgro is to increase market
opportunities, improve competitiveness, foster sustainability, and increase benefits to those in
coffee, banana, and vegetable industries, while creating greater business opportunities for and
expanding the capabilities of small and medium-scale farmers. The strategies to achieve this
goal include expanding, reinforcing, and improving agriculture-related technical assistance;
strengthening and supporting farming cooperatives; helping producers access loans; and
facilitating supplier and distributor relationships. To beneficiaries, access to bank loans is
perhaps the most important strategy; several noted that without bank loans, they were unable to
implement or take advantage of some of the program’s other activities because they did not
have the money to do so.

ProAgro was to end on August 20, 2011. However, unforeseen events, such as visa delays and
health problems for program personnel, led to $2 million dollars remaining in the program
budget. With the remaining budget, the mission extended the program until September 30,
2012, because the program had not yet achieved its goals. Reasons included limited availability
and high prices of agricultural inputs and equipment, which hindered production of bananas and
vegetables, and some individual cooperatives’ lack of capacity to provide needed services. The
program also had trouble expanding access to bank loans because of the inability of producers
to meet bank requirements. Consequently, while the program reported assisting a greater
number of organizations and had many more beneficiaries than planned, key indicators of
success fell behind. For example, in FY 2010, the program had a target of helping producers
get $4.1 million in loans but reported loans amounting to only $928,537. In addition, total sales
by producers, targeted at $9.8 million, ended up at only $748,806 for the year.5 With the
extension, the program planned to incorporate new approaches and pursue the interventions
that have shown the most success.

Municipal Development Program. Under the Angola Partnership Alliance, USAID and
Chevron agreed to provide support for programs promoting municipal development, health,
education, and economic diversification. Under this partnership, they support the Municipal
Development Program, which seeks to improve relationships and working models between
municipal governments and their communities. For example, to improve relationships, the
program has established development forums, which help set the agenda for meetings between
civil society organizations and municipal governments. To improve working models, the

5
 Because the program did not report on its performance indicators in the second or third quarters of FY
2011 (discussed on page 11) and because site visits were limited for security reasons (explained in the
Scope and Methodology section), the audit’s data validation procedures were too limited to allow a
conclusion on the accuracy of the reported results.


                                                                                                     5
program has helped create community-driven needs assessment tools, known as profiles, for
targeted municipalities; the profiles will feed into future integrated development plans. At the
time of fieldwork, this model was being considered by the Ministry of Territorial Administration
for the rest of Angola’s municipalities. The program has also developed tools to facilitate
planning and started work on other key deliverables such as a finance and budget manual for
municipalities’ use. To put their improved relationships and models into practice, municipalities
have received small grants for implementing microprojects, such as rehabilitating schools or
building water pumps.

However, the program did not meet all scheduled objectives. For example, key deliverables,
such as the finance and budget manual mentioned above, were not completed because of
insufficient program staffing. In addition, due to delays created by the municipal and provincial
governments, activities such as the selection and prioritization of microprojects were delayed,
meaning that projects were not implemented in some communities. Further, the cancellation of
a subpartner agreement with Development Workshop (a nongovernmental organization), for
nonperformance with agreement terms, directly delayed completion of the municipal profile in
the affected municipality and delayed activities in other municipalities because of the resulting,
unplanned work for CARE Angola.

While program officials reported that the numbers of beneficiaries and activities were generally
as planned in FY 2011,6 delays prevented the program from achieving its intended outcomes,
such as demonstrating the value of an inclusive process to communities through the completion
of microprojects. Therefore, the program, which was scheduled to end on July 18, 2009, was
extended multiple times and is now scheduled to end on March 31, 2012, so that the
approximately $1.4 million remaining in the budget can be used.

PMI Activities Under the Civil Society Strengthening Program. Esso Angola, through the
ExxonMobil Foundation, donated funds to USAID to support the mission’s ongoing efforts to
prevent and treat malaria in Angola. Some of these funds were obligated to PMI activities under
the Civil Society Strengthening Program, which sought to strengthen the capacity of health-care
workers to treat malaria through trainings and supervisory visits. As reported by World
Learning, the program trained 5,003 people in the first three quarters of FY 2011—already
achieving 103 percent of the annual target.7

However, with the program ending on December 31, 2011, there was no indication that the
trainings and supervisory visits resulted in a sustainable expansion of malaria prevention or
treatment coverage. When asked about sustainability, officials from USAID and World Learning
indicated that more donor funding was needed for continued benefits from the program. This
was because of (1) high turnover in the health-care field, as trained employees leave for better
paying jobs, (2) cultural reluctance by trained employees to share their knowledge with fellow
employees, (3) reluctance on the part of officials from the Ministry of Health to engage in joint
training or supervision because they were not incentivized to do so, and (4) the program’s lack
of focus on preparing individuals to continue training and supervision activities on their own.


6
  Because of security restrictions (discussed in the Scope and Methodology), the audit was able to
perform only limited validation procedures on the Municipal Development Program’s reported results.
However, those procedures did not uncover any significant discrepancies.
7
  Because of security restrictions (discussed in the Scope and Methodology), the audit was unable to
validate the reported data.


                                                                                                  6
Factors outside the mission’s control or interest, such as the availability and prices of
agricultural inputs, dependence on local governments, and the cultural norms described above
significantly affected the three partnerships’ ability to achieve their planned goals and
objectives. However, according to USAID’s ADS, missions must consider factors such as these
in planning,8 and missions must make adjustments in tactics when conditions warrant.9
USAID/Angola was not poised to do this, because of the human resources challenges
discussed below. As a result, the effectiveness of U.S. Government resources dedicated to
growing and diversifying the economy, promoting good governance, and combating malaria in
Angola—a key U.S. strategic partner in Africa—was jeopardized.

Angola, now 7 years into stable peace, still presents extraordinarily difficult living conditions
following decades of civil strife.10 As a result, USAID has had difficulty filling its U.S. direct-hire
positions in-country. Additionally, due to the hard conditions, the mission has struggled to keep
employees in Angola for their full 2-year tours. Since mid-2005, four officers have curtailed their
tours, some after only 9 or 10 months. To illustrate, USAID/Angola is authorized to have nine
U.S. direct hires—a mission director, a program officer, a general development officer, a health
officer, a democracy and governance officer, an education officer, and three employees hired
under the Development Leadership Initiative.11 However, since June 2005, the mission has
never had its full complement of U.S. direct-hire staff. At the time of the audit, for example, the
mission director was preparing for his imminent departure; the program officer position, vacated
by someone who curtailed his tour, was filled by a contract employee with a 4-month term; the
general development officer had curtailed her tour 4 months earlier; the health officer was
preparing for an imminent and early departure; the democracy and governance and education
positions were vacant; and the three Development Leadership Initiative positions were filled by
employees who indicated that they had not attended trainings appropriate for their positions.

The mission has also had difficulty hiring local employees. As of October 6, 2011, the mission
had 53 positions. Of the 32 designated for local employees, 12 positions (38 percent) were
unfilled. Given the specialized nature of work in the mission and the higher salaries available
elsewhere, qualified candidates have been difficult to recruit. The hard living conditions and a
Portuguese language requirement also limit the mission’s ability to recruit employees from
outside the country to fill the local employee positions. For example, the position in the program
office for a monitoring and evaluation specialist has been advertised twice, but a suitable
candidate has not been identified.

Because the selected partnerships are nearing the end of their agreements and because the
mission has already taken steps to address its human resources challenges (including
discussing the matter with the Africa Bureau in Washington, D.C.), the audit makes no
recommendations.


8
  Such factors are examples of critical assumptions, which ADS 201.3.8.3 defines as outside the control
or influence of USAID and its partners but likely to affect the achievement of results. Critical assumptions
are one of the required elements of a results framework—a required planning, communications, and
management tool.
9
  ADS 202.3.6.3.
10
   The U.S. Department of State has designated Luanda, Angola’s capital, as a hardship differential post,
which provides staff with a differential of 25 percent over basic compensation.
11
   The Development Leadership Initiative was launched in 2008 to focus on hiring junior Foreign Service
officers across all occupational categories as well as midlevel officers in critical categories. At
USAID/Angola, these developmental positions are to be eliminated when the incumbents leave in 2012.


                                                                                                          7
Partners Did Not Benefit as
Anticipated
The Global Development Alliance model for public-private partnerships notes that a well-
constructed partnership furthers the objectives of the USAID mission while benefiting the
interests of all partners. The advantage of such a partnership lies in having a significant and
sustainable impact on a particular development challenge. However, USAID/Angola did not
plan partnerships to maximize potential benefits for itself and its partners, as discussed below.

Partnerships Did Not Minimize Risk and Maximize Benefits to USAID. Partners should
share resources and risks, and USAID’s public-private partnership model is designed to allow
USAID to leverage resources in at least a 1:1 ratio from private sector partners to achieve the
mutual goals of the partnership. Resources may include cash donations or in-kind contributions
such as commodities, the value of time donated by technical consultants, intellectual property
rights, or the use of facilities.

However, USAID/Angola did not design partnerships so that risks were shared. Specifically, the
mission did not incorporate contingency plans into memorandums of understanding and awards
to minimize impact on program implementation when contributions from private sector partners
fall short. This is important because program awards are between USAID and the implementing
partner, meaning that USAID programming is at risk when funding from private sector partners
does not come through. For example, Lazare Kaplan International, an original partner in the
alliance supporting the Municipal Development Program, pulled out of the alliance in 2008 for
economic reasons. Without this partner’s support, USAID did not have funding to continue
activities, and the program had to curtail its activities in Lunda Norte Province, after forfeiting
costs already incurred.

Additionally, in-kind contributions from private sector partners to the selected programs were not
planned for, existed only in limited cases, and were not systematically tracked. For example,
Chevron has provided private aircraft to fly USAID employees to events in Cabinda Province,
which is otherwise inaccessible to mission staff because of travel restrictions (discussed on
page 12). However, because this type of contribution was not planned for, logistical
requirements such as approval from both parties’ legal departments became too onerous, and
both parties expressed hesitancy to engage in similar activities in the future. By not considering
in-kind contributions, however, USAID/Angola is missing opportunities to leverage nonmonetary
resources from its private sector partners that could help address the mission’s performance
management deficiencies (discussed on page 10). For example, delegation of monitoring
activities to private sector partners, or use of private sector partners’ resources for
transportation (if properly planned for) could help address the mission’s poor site visit record.
Also, additional public events organized by private sector partners could help increase
awareness of these jointly funded activities, mitigating deficiencies in the programs’ branding
and marking plans (page 14).

Because in-kind contributions by private sector partners to the selected programs existed only in
limited cases and were not systematically tracked, monetary contributions are the best
measurement of the selected partnerships’ benefit to USAID/Angola—and therefore to the
Agency’s development goals. However, the audit calculated that these contributions were
significantly below the target ratio of 1:1 established in USAID’s public-private partnership
model. For example, as of September 30, 2011, USAID had contributed $7.8 million to ProAgro

                                                                                                 8
and $12 million to the Municipal Development Program at the same time that Chevron had
contributed $3 million and $2.3 million,12 respectively. For PMI activities under the Civil Society
Strengthening Program, USAID contributed $10.6 million, while it obligated $1.8 million of Esso
Angola’s PMI contributions to the program.

With the potential for disruptions to program implementation, limited in-kind contributions, and
monetary contributions significantly below USAID’s target ratio of 1:1, the audit concludes that
USAID/Angola did not plan partnerships to minimize risk and maximize benefits. Although
contingency plans and the tracking of in-kind contributions are not currently USAID
requirements, the Office of Innovation and Development Alliances has recognized their
importance, and guidance will be forthcoming.

Partnerships Did Not Provide Sufficient Information to Private Sector Partners. A 2008
evaluation of the Global Development Alliance initiative noted that business partners are faced
with increasing internal and external pressure to demonstrate impact, as corporate social
investments become increasingly competitive and external stakeholders demand greater
transparency.13 This position was supported by the private sector partners involved in the
selected programs, and as a result, these partners want robust, systematic monitoring and
evaluation systems. To this end, USAID/Angola Mission Order 203 notes several requirements
for public-private partnerships, such as the need for “joint monitoring plans.” These would
address both USAID/Angola’s monitoring objectives and needs and the private sector partner’s
objectives and needs, which may be over and above USAID’s basic requirements. For
example, these partners may want more financial information on programs than USAID typically
collects, or partners may want summary information on an initiative (such as PMI) provided
quarterly, whereas USAID’s guidelines call for this information to be compiled annually.

However, none of the selected partnerships had joint monitoring plans in place. While some of
the selected partnerships recently and informally documented the parties’ roles and
responsibilities, none had a formal document outlining which program activities would be
monitored and reported on, and with what frequency.

Relationships with private sector partners are jeopardized, and future funding is at risk, when
the partners do not have access to the monitoring and evaluation information they believe they
need to account properly for shareholder funds. At USAID/Angola, these partners’ attempts to
obtain such information on an ad hoc basis have further stressed the mission, which is already
facing resource constraints. For example, Esso Angola requested quarterly reports showing the
results of the mission’s PMI activities. To respond to this request, USAID’s health office needed
to compile data from multiple implementing partners; therefore, the request created
unanticipated work for the mission’s health team, which the team was not prepared to handle on
a recurring basis.




12
   Lazare Kaplan International contributed an additional $1 million to the Municipal Development Program,
bringing total private sector contributions to $3.3 million.
13
   Evaluating Global Development Alliances: An Analysis of USAID’s Public-Private Partnerships for
Development,accessed on January 6, 2012, at http://idea.usaid.gov/sites/default/files/attachments/
Evaluation%20reformatted%2010.29.08.pdf.


                                                                                                       9
The mission’s poor partnership planning has two main causes:

   The mission has not had consistent champions for the Agency’s alliance initiative. Turnover
   in the mission’s program office, and even at the mission director level, led to differing levels
   of alliance interest—and therefore guidance and involvement—in the initiative during these
   partnerships. Officials at Chevron, Esso Angola, and the USAID mission all noted that the
   selected partnerships were not as successful as they once were because there had been
   less focus on the parties’ relationships in recent years.

   The Office of Innovation and Development Alliances updates its requirements, guidance,
   and best practice publications periodically. This means that at the time these partnerships
   were created USAID/Angola officials did not have the resources they have now and explains
   why the partnerships were not planned according to current best practice—for example,
   having contingency plans in place.

To improve the mission’s future activities as part the Agency’s alliance initiative, the audit makes
the following recommendation.

   Recommendation 1. We recommend that USAID/Angola designate an individual, in
   writing, who is responsible for spearheading the mission’s efforts to build and manage
   strategic partnerships and for maintaining the mission’s relationship with the Office of
   Innovation and Development Alliances.

USAID/Angola Did Not Meet
Performance Management
Requirements
AOTRs are designated by the agreement officer to be responsible for monitoring the recipient's
progress in achieving program objectives, and for verifying that the recipient's USAID-funded
activities conform to the terms and conditions of its award. To provide mission-specific
guidelines and assign responsibilities for performance management and evaluation,
USAID/Angola signed Mission Order 203 on December 15, 2008.

However, USAID/Angola’s AOTRs were not meeting their performance management
requirements in several areas:

   Mission Order 203 states that program teams are responsible for monitoring recipients and
   verifying the accuracy of their reported results by conducting regular site and field visits.
   However, the mission has been unable to conduct regular site visits to all program locations
   to monitor recipients to its satisfaction. For example, the Municipal Development Program
   currently has activities in Bié, Cuando Cubango, Cabinda, and Huambo Provinces, but the
   AOTR reported that he has been unable to visit Cuando Cubango and Cabinda, despite his
   desire to do so, because of human resources challenges and security restrictions.

   Mission Order 203 contains a standardized site visit form to facilitate the documentation of
   site visit results. While this form’s use is not required by the mission order, none of the
   selected programs took advantage of this tool, nor did they have an alternate system for
   maintaining systematic, organized, and accessible site visit checklists or reports. The
   AOTRs for ProAgro and Municipal Development Program maintained notes from their site

                                                                                                 10
     visits only in handwritten form. Site visit reports for the PMI activities under the Civil Society
     Strengthening Program were available on the mission’s shared drive, but these reports did
     not follow a standard format. Not only was standardized documentation lacking, but the
     breadth and depth of the site visits also varied in areas such as data validation.

     Mission Order 203, in reference to ADS 203.3.5, requires that performance indicators must
     have a data quality assessment at least once every 3 years to ensure that the mission is
     aware of the strengths and weaknesses of the data and the extent to which it can be relied
     on to make management decisions. However, the Municipal Development Program is past
     due for a data quality assessment, and the mission could not locate the results from the
     previous assessment (which auditors were told happened in 2008).14 Additionally, in the
     most recent ProAgro data quality assessment, the AOTR reviewed how implementing
     partner data was stored and collected, but did not compare central office records to records
     kept at field sites (a step recommended by ADS 203.3.5.3), limiting the effectiveness of the
     assessment.

     Mission Order 203 states that implementing partners are responsible for “providing timely
     quarterly reports and work plans that clearly present baseline, target, and actual results for
     the reporting period and the fiscal year.” However, CLUSA did not report on indicator
     results from ProAgro to USAID in the second or third quarter of FY 2011, and the
     USAID/Angola AOTR failed to notice that this information was missing.

     One of an AOTR’s responsibilities, as outlined in the designation letter that each AOTR
     signs, is to establish and maintain an adequate AOTR file, which should include a copy of
     the agreement and all modifications and correspondence with the recipient. However,
     USAID/Angola was slow to provide information to the audit team and often had to defer to
     the implementing partner or the regional office to supply requested information such as
     agreement modifications, branding and marking plans, and monitoring and evaluation plans.
     This pattern indicates that the AOTR files were not well maintained.

These deficiencies can be attributed to a few primary causes:

     Mission personnel were unfamiliar with the guidance in Mission Order 203. Some mission
     staff, such as the ProAgro AOTR, had never read the document. Additionally, the program
     office, generally the office responsible for mission orders, was unaware of several of the
     mission order’s requirements.

     Mission Order 203 does not sufficiently address the mission’s performance management
     and evaluation requirements. For example, while it includes a standardized site visit form to
     facilitate consistent site visit procedures, it does not require its use.

     As described above, USAID/Angola is plagued by human resources challenges, which
     affected its performance management activities. For example, a monitoring and evaluation
     position in the mission’s program office has been vacant for several years, delaying data
     quality assessments. Additionally, AOTRs transfer in and out of this mission frequently, and
     responsibilities are not adequately transferred between the outgoing and incoming staff.

14
  The AOTR for the Municipal Development Program told us that a data quality assessment was
scheduled after fieldwork, in November 2011.


                                                                                                    11
   Current AOTRs further noted that they do not have sufficient time to review program
   activities, given their multiple responsibilities.

   The mission order is setting unrealistic standards given the current mission environment by
   not discussing alternative monitoring activities. For safety reasons, the U.S. Embassy has
   restricted air travel on commercial carriers in Angola for U.S. Government employees. This
   restriction alone makes certain areas of the country, such as the northern province of
   Cabinda, essentially inaccessible to mission staff. Further, in a country with great distances
   and poor infrastructure, it can take many hours, if not days, to reach activity sites in the far
   regions of the country. Since the U.S. Embassy also mandates that two vehicles be
   dispatched for trips outside greater Luanda, justifying the use of vehicles for routine site
   visits becomes difficult with the limited pool of shared vehicles for U.S. Government use.

As a result, USAID/Angola is unlikely to discern when implementing partners are not performing
against the terms of their cooperative agreements. For example, the audit team noted that the
program used inconsistent criteria to record when a loan is distributed, something the AOTR
had failed to uncover in his data quality assessment. The audit team also found multiple
instances of noncompliance with branding and marking requirements (discussed on page 14).

To correct this, the audit makes the following recommendations.

   Recommendation 2. We recommend that USAID/Angola review Mission Order 203
   and update it to address performance management and evaluation requirements,
   including alternative monitoring activities to mitigate security constraints.

   Recommendation 3. We recommend that USAID/Angola remind staff members, in
   writing, of their responsibility to comply with Mission Order 203, until such guidance is
   superseded.

   Recommendation 4. We recommend that USAID/Angola develop and implement a
   strategy for addressing performance management requirements, given the human
   resources challenges the mission faces.

   Recommendation 5. We recommend that USAID/Angola remind the Cooperative
   League of the U.S.A., in writing, of its responsibility to report on progress toward its
   results, including reporting on its performance indicators quarterly.

   Recommendation 6. We recommend that USAID/Angola remind agreement officer’s
   technical representatives, in writing, of their responsibility to maintain adequate files.

USAID Did Not Ensure
Program Costs Were
Adequately Reviewed
The Municipal Development Program was awarded to CARE on condition that the funds be
administered in accordance with 22 CFR 226, and by extension with Office of Management and
Budget Circular No. A-122, which establishes principles for determining costs.

However, several issues call into question the appropriateness of CARE Angola’s financial
management practices:

                                                                                                12
     The CARE 2008 A-133 audit identified $24,681 in questioned costs related to the Municipal
     Development Program, as well as numerous compliance and internal control deficiencies in
     CARE’s Angola office.15

     Recent A-133 audit reports discuss irregularities in a previous program, implemented by
     CARE Angola, from March 2003 to September 2005 under an award from
     USAID/Washington. USAID determined in October 2010 that $1.7 million in costs related to
     this program were unallowable; CARE is appealing the determination.

     There is evidence that CARE Angola mismanaged funds from another international donor,
     to which it is now indebted.

     Key officials with financial management responsibilities in the CARE Angola office have
     resigned, reportedly because of management issues.

     The AOTR made surprise visits to the CARE Angola office, noting the absence of key
     officials. As a result, the AOTR was able to have the portion of one official’s salary that is
     charged to USAID reduced from 60 percent to 20 percent (though this reduction was not
     taken retroactively).

     An official from CARE Angola requested permission to charge costs to the program that
     were incurred prior to the implementation of program activities. The AOTR denied these
     direct charges, at which point the CARE official suggested that these costs would be used
     as part of the program’s cost-sharing contributions. The AOTR questioned this, too, and the
     official dropped the request.

     On June 13, 2011, CARE Angola submitted a request to extend the Municipal Development
     Program by 6 months. The budget submitted with this request contained no notes, although
     it reflected major changes, including the elimination of the chief of party position after 3
     months and the creation of a new adviser position. After requiring several changes to the
     request, the AOTR agreed to this extension on September 7, 2011.

Although the AOTR has taken steps to review CARE’s budgets and approval requests carefully,
he believes his purview regarding program finances is limited because the program is funded
under one of several cooperative agreements with a U.S.-based organization operating on a
global letter of credit.16 The mission officials to which he previously raised concerns about
CARE Angola’s financial management shared his belief. Therefore, when the AOTR raised the
same concerns to the USAID agreement officer (who is not in the mission but in

15
   An A-133 audit is required of U.S. nonfederal entities that spend more than $500,000 of federal funds in
a year. This type of audit generally covers all of an entity’s operations. It validates that the financial
statements are presented fairly; reviews internal controls; and ensures compliance with laws, regulations,
and award terms. The Municipal Development Program was one of multiple federal awards included in
this audit’s sample population. For this award, the total value of 2008 expenditures tested was $1.7
million.
16
   USAID uses letters of credit to provide payment advances to qualifying entities that must report on
actual disbursements within a specified period. When feasible, all of an entity’s advance funding is
consolidated into a single letter of credit. As a result, advances to CARE for its Angola program are
commingled at headquarters with advances for all its other USAID programs worldwide.


                                                                                                        13
USAID/Southern Africa’s Office of Acquisition and Assistance), he did not specifically request
further review of the partner’s financial and administrative practices. Additionally, none of the
cognizant officials— the AOTR, officials in the financial management office, and officials in the
Office of Acquisition and Assistance—had ever reviewed the implementing partner’s A-133
reports. The AOTR and the financial management office never received copies of the reports,
and although Office of Acquisition and Assistance officials have access to a repository of A-133
reports, they failed to review them before the most recent CARE Angola agreement
modification, as they typically would; they said the failure was the result of an oversight.

Further, officials at USAID/Angola (and its regional support office, USAID/Southern Africa) were
unaware of the problems in the earlier program at the time the current award was made in July
2006 and remained unaware through the end of fieldwork. They were unaware because the
earlier award was made from USAID/Washington, and there is no evidence that
USAID/Washington and USAID/Angola were ever in contact regarding CARE Angola.

As a result, funds provided by Chevron and U.S. taxpayers have been put at risk by CARE
Angola. Therefore, the audit makes the following recommendation.

   Recommendation 7. We recommend that USAID/Angola contract an independent
   accounting firm to conduct an agreed-upon procedures engagement of the Municipal
   Development Program’s expenditures.

Because program activities are set to end on March 31, 2012, to ensure that program
records are available for the recommended engagement, the audit also recommends the
following in accordance with CFR 226.53, “Retention and access requirements for records,”
which requires the retention of pertinent records for 3 years from the date of submission of
the final expenditure report.

   Recommendation 8. We recommend that the agreement officer for the Municipal
   Development Program remind CARE Angola, in writing, of its obligation to retain records
   supporting program expenditures for at least 3 years.

USAID/Angola Did Not
Monitor Branding and Marking
Ensuring that the American people are recognized appropriately for their generosity in funding
U.S. foreign assistance has been a long-standing U.S. Government objective. For example,
Section 641 of USAID’s framework legislation, the Foreign Assistance Act of 1961, codified as
amended in 22 U.S.C. 2401, specifies that programs under the act be identified appropriately
overseas as “American Aid.” More recently, the United States’ post-September 11 national
security strategy stressed the need for U.S. foreign assistance activities to be identified clearly
in host countries as being provided by the United States. USAID’s ADS Chapter 320,
authorized by the above legislation, guides the Agency’s branding and marking activities to help
achieve these objectives.

Further, both Chevron and Esso Angola listed visibility as one of the key reasons that they
entered into partnerships with USAID.

While each selected program had a branding and marking plan that fulfilled the terms of the
program agreement, these plans were not maintained in the AOTR files, and therefore had to be

                                                                                                14
obtained from the implementing partners. This fact alone indicates that the AOTRs were not
monitoring implementing partners’ adherence to the plans. However, the audit also noted:

     The ProAgro plan noted that technical documents such as baseline studies, market studies,
     and subsector analyses would be branded with appropriate logos on the cover page.
     However, some were not. Additionally, participant sign-in sheets from program-sponsored
     trainings were not branded with the USAID or the Chevron logo.

     Under the Municipal Development Program, there was nothing to promote the source of
     funding at a civil society conference attended by the audit team, nor was there any signage
     on a water pump recently installed in a village in Huambo Province under the microproject
     activities. Further, neither the USAID nor the Chevron logo was visible on program vehicles,
     as stipulated by the program’s branding and marking plan. The plan also stated that both
     USAID and Chevron logos should appear on the program’s quarterly reports, but Chevron’s
     logo was not present on the report for the second quarter of FY 2011. Lastly, USAID-
     purchased resources at CARE Angola headquarters, such as laptops and printers, were
     marked with taped-on paper printouts instead of stickers.

Further, there was no indication that the ProAgro branding and marking plan had ever been
approved by USAID/Angola,17 or that any of the plans were updated as changes to programs
occurred or waivers were needed. As a result, the audit noted the following:

     The ProAgro plan contained many inaccuracies. For example, it stated that because
     funding for the program would be contributed equally by USAID and Chevron (which it was
     not), recognition should also be equal.

     The plan for the Municipal Development Program was not updated after one private sector
     partner left the partnership in 2008.

     The plan for PMI activities did not mention recognition for private sector partners.

According to officials at USAID/Angola, branding and marking requirements do not receive
adequate attention because of the mission’s human resources challenges.

Opportunities to increase the public diplomacy benefits of U.S. foreign assistance programs are
missed with inadequate branding. Additionally, the relationships with private sector partners will
be jeopardized if they believe that the visibility that they receive from being part of these
partnerships is insufficient.

Because the selected programs have ended or will soon end, the audit makes no
recommendation to review and approve these specific branding and marking plans. However,
to help ensure that future partnerships benefit from branding and marking objectives, in addition
to Recommendations 2-4 above, the audit makes the following recommendation.

     Recommendation 9. We recommend that USAID/Angola remind staff members, in
     writing, of their responsibilities to verify that implementers adhere to branding and
     marking requirements, in accordance with Automated Directives System 320.
17
  The AOTR for the Municipal Development Program noted that the branding and marking plan for the
program had been approved, but was unable to provide the audit team with support.


                                                                                               15
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Angola agreed with all nine recommendations.
Management decisions have been reached on eight recommendations, and final action has
been taken on Recommendations 3, 5, 6, 8, and 9. Recommendation 7 remains open because
the mission has not yet been able to provide a target date for final action. A detailed evaluation
of management comments follows.

Recommendation 1. USAID/Angola agreed to assign responsibility for the mission’s efforts to
build and manage strategic partnerships and for maintaining the mission’s relationship with the
Office of Innovation and Development Alliances to the monitoring and evaluation specialist
position. This position is currently vacant, but the mission expected to fill the position by
February 29, 2012.       As a result, a management decision has been reached on
Recommendation 1.

Recommendation 2. USAID/Angola agreed to update Mission Order 203 by February 29,
2012. As a result, a management decision has been reached on Recommendation 2.

Recommendation 3. On January 12, 2012, USAID/Angola sent an e-mail to mission staff
reminding them of their responsibilities to comply with Mission Order 203. Based on
management’s comments and the supporting documentation provided, a management decision
has been reached, and final action taken, on Recommendation 3.

Recommendation 4. USAID/Angola has assigned responsibility for the completion of a
strategy to address performance management requirements to the monitoring and evaluation
specialist position. This position is currently vacant, but the mission expected to fill the position
by February 29, 2012, and said the strategy would be completed once the position is filled. As a
result, a management decision has been reached on Recommendation 4.

Recommendation 5. On October 13, 2011, USAID/Angola sent a written reminder to CLUSA
of its responsibility to report on progress toward its results. Based on management’s comments
and the supporting documentation provided, a management decision has been reached, and
final action taken, on Recommendation 5.

Recommendation 6. On January 12, 2012, USAID/Angola sent an e-mail to AOTRs,
reminding them of their responsibility to maintain adequate files. Based on management’s
comments and the supporting documentation provided, a management decision has been
reached, and final action taken, on Recommendation 6.

Recommendation 7. The mission agreed with the recommendation and designed a contract to
conduct an agreed-upon procedures engagement of the Municipal Development Program’s
expenditures. However, contrary to management’s comments, the mission does not have funds
available to pay for the engagement, and consequently the responsible agreement officer has
not finalized the contract with an independent audit firm. As a result, Recommendation 7 is still
without a management decision.



                                                                                                  16
Recommendation 8. On November 21, 2011, the agreement officer for the Municipal
Development Program sent a letter to remind CARE Angola of its obligation to retain records
supporting program expenditures for at least 3 years. Based on management’s comments and
the supporting documentation provided, a management decision has been reached, and final
action taken, on Recommendation 8.

Recommendation 9. On January 12, 2012, USAID/Angola sent an e-mail to mission staff
members reminding them of their responsibility to verify that implementers adhere to branding
and marking requirements.     Based on management’s comments and the supporting
documentation provided, a management decision has been reached, and final action taken, on
Recommendation 9.




                                                                                          17
                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID/Angola’s public-private partnerships
were achieving their development goals. Audit fieldwork was conducted from September 19 to
October 7, 2011.

In planning and performing the audit, we assessed USAID/Angola’s internal controls.
Specifically, we reviewed and inquired about the mission’s reporting for the Federal Managers’
Financial Integrity Act of 1982,18 which provided detail on the mission’s administrative
management, financial management, programming, and general control environments. We also
obtained an understanding of and evaluated the mission’s organizational structure, contracting
and assistance processes, monitoring and evaluation procedures, and reporting processes.
This included obtaining and reviewing documentation to support mission strategic planning,
program solicitation and procurement, the designation of the AOTRs, the completion of data
quality assessments, the performance of site visits, the documentation of meetings held with
implementing partners, the submission of periodic performance reports, and the scheduling and
completion of program evaluations.

USAID/Angola reported having four active public-private partnerships, to which private sector
partners had contributed $10.7 million. Using information provided by USAID/Angola, we
selected three of these partnerships for detailed review. The three programs selected were
CLUSA’s Agriculture Development and Finance Program (locally branded as ProAgro), a
partnership with Chevron; CARE’s Municipal Development Program, also a partnership with
Chevron; and PMI activities under World Learning’s Civil Society Strengthening Program, a
partnership with Esso Angola.19 As of June 30, 2011, USAID had obligated $38.5 million to
these programs, of which $8.1 million came from private sector partners (76 percent of total
private sector partner contributions). Supporting documents and correspondence with the
private sector partners confirmed these amounts.

We conducted fieldwork in Luanda, where we interviewed key personnel at USAID/Angola,
Chevron, Esso Angola, and implementing partners’ head offices. Implementing partners

18
  Public Law 97-255.
19
  During audit planning, the audit team did not receive complete information from USAID/Angola on its
public-private partnerships. Although the mission indicated that only one program under the PMI
umbrella, World Learning’s Civil Society Strengthening Program, had received Esso Angola funds, in
reviewing financial information auditors discovered another three programs that had received Esso
Angola funds. Still, because the PMI activities under World Learning’s Civil Society Strengthening
Program constituted the largest single program to receive Esso Angola funds (accounting for nearly half
the total), the audit team kept the original sample of these programs.


                                                                                                    18
                                                                                       Appendix I


interviewed in Luanda included officials from CLUSA, CARE, and World Learning. We also
conducted a teleconference with staff in USAID’s Office of Innovation and Development
Alliances (formerly known as the Office of Development Partners) in Washington, D.C. Outside
Luanda, we performed the following:

   We visited CLUSA’s Benguela office and performed site visits at three banana plantations of
   varying sizes, all beneficiaries of ProAgro.

   We visited the Chicala Cholohanga offices of Save the Children, the subpartner working as
   part of the Municipal Development Program in Huambo Province. We also visited the site of
   one microproject and observed a session at a program-sponsored civil society conference.

   We visited the Huambo offices of The MENTOR Initiative, the subpartner responsible for
   implementing the Civil Society Strengthening Program’s PMI activities in Huambo Province.
   We also visited two health facilities in or near Huambo, where beneficiaries of the program’s
   training and supervision activities worked.

Audit activities outside Luanda were limited by the same security and travel restrictions faced by
the mission (described on page 12).

Methodology
To answer the audit objective, we first obtained information to understand USAID’s
requirements and guidance for the implementation of public-private partnerships. Specifically
we reviewed documents available on the Web site for the Office of Innovation and Development
Alliances (eventually also conducting a teleconference with this office). We also reviewed
applicable laws, best practices, and guidelines specific to the selected programs, including ADS
Chapters 201, “Planning”; 202, “Achieving”; 203, “Assessing and Learning”; 303, “Grants and
Cooperative Agreements with Non-Governmental Organizations”; and 320, “Branding and
Marking.”

We then inquired about USAID/Angola’s ongoing public-private partnerships and reviewed
documentation received in response to the inquiry. We judgmentally selected programs for in-
depth review according to (1) total award amount, (2) partner contributions, and (3) start and
end dates. The selected programs give us coverage of three of USAID/Angola’s four ongoing
partnerships.

At USAID/Angola, we met with officials responsible for the selected programs. As applicable,
we interviewed the team leaders; AOTRs; activity managers; and officials from the program,
human resources, and financial management offices. We conducted these meetings to assess
mission personnel’s knowledge and implementation of USAID guidance and requirements, and
their general familiarity with the selected programs’ activities. We reviewed documentation
provided by USAID/Angola, such as agreement documents, work plans, and performance
reports, to determine the extent to which planned results were being achieved. Testimonial
evidence was evaluated in conjunction with other interviews, available documentation, and site
visits.

Additionally, to assess whether ProAgro was achieving its development goals, we interviewed
officials from CLUSA, the implementing partner responsible for this activity. Through these
interviews, we assessed the implementing partner’s knowledge and implementation of USAID

                                                                                               19
                                                                                          Appendix I


guidance and requirements. We also reviewed the memorandum of understanding with and
interviewed officials from Chevron to gain perspective on alliance activities and assess
Chevron’s level of satisfaction with the alliance. We compared the program’s targets and
reported results for its performance indicators, and performed validation by reconciling selected
FY 2011 reported results20 with the field database. And we met with program beneficiaries in
Benguela Province to learn their views of the program and assess their awareness of USAID
and Chevron’s involvement in the program.

As well, to assess whether the Municipal Development Program was achieving its development
goals, we conducted interviews with officials from CARE, the implementing partner responsible
for this activity, and Save the Children, the subpartner responsible for implementing activities in
Huambo Province. Through these interviews, we assessed the implementing partners’
knowledge and implementation of USAID guidance and requirements. We reviewed the
memorandum of understanding with and interviewed officials from Chevron to gain perspective
on alliance activities and assess Chevron’s level of satisfaction with the alliance. We also
evaluated the program’s reported progress on its FY 2011 performance indicators and
performed limited validation by comparing reported numbers with source documentation.
Further, we visited the site of one microproject and observed a session at a program-sponsored
civil society conference to further understand program activities and assess beneficiaries’
awareness of USAID’s and Chevron’s involvement in the program.

Moreover, to assess whether PMI activities under the Civil Society Strengthening Program were
achieving their development goals, we conducted interviews with officials from World Learning,
the implementing partner responsible for this activity, and The MENTOR Initiative, the
subpartner which implements the Civil Society Strengthening Program’s PMI activities in
Huambo Province. Through these interviews, we assessed the implementing partners’
knowledge and implementation of PMI and of USAID guidance and requirements. We also
conducted interviews with officials from Esso Angola to gain perspective on partnership
activities and assess Esso Angola’s level of satisfaction with the partnership. Further, we
interviewed officials at selected health facilities to learn their views on the program’s training and
supervision activities and assess their awareness of USAID and Esso Angola’s involvement in
the program.

Given the nature of the audit objective, no materiality thresholds were established. Additionally,
because we were restricted in our selection of programs and site visits for security
reasons, results cannot be projected to the mission’s entire portfolio.




20
   Because reported results do not form the basis for answering the audit objective, validation was
performed on a very limited basis—solely to gain confidence in the field database controls. This
database was used to track all reported results. To gain comfort with the field database, we compared
the volume of loans distributed according to the field database with bank documentation and validated
that two selected training attendees had signed the supporting hardcopy training attendance sheets.


                                                                                                   20
                                                                                        Appendix II



MANAGEMENT COMMENTS


Date:          January 13, 2012

From:          Janice M. Weber, Acting Mission Director, USAID/Angola /s/

To:            Christine M. Byrne, Regional Inspector General, Pretoria, South Africa

Re:            Audit of USAID/Angola's Public-Private Partnerships for Development
               (Audit Report Number No. 4-654-12-XXX-P) – December 7, 2011


In accordance with ADS 595.3.1, this memorandum transmits USAID/Angola‟s management
comments on the findings and recommendations contained in the subject draft audit report.

Findings
1. Selected partnerships did not achieve their development goals (page 4)

Management Comments: The Mission would concur, in part. While it is true not all
development goals were achieved, as the authors noted, the projects did meet the majority of
their goals and, in some cases, exceeded targets – e.g., the numbers of households and agriculture
- related firms assisted. In all cases, private sector partners have sought not to diminish, but to
increase their collaboration with USAID. In the only case where a partner exited the
collaboration, their exit was the result of unrelated poor financial performance in their primary
industry – diamonds. Given this, the finding that “the partnerships did not achieve their
development goals” is, in our opinion, an exaggeration. Some of the unmet goals were clearly
too ambitious when originally set, given the local context, and other unmet goals, requiring local
buy-in, should be considered notional and entirely subject to the level of local agreement.
Community targets were not part of any partnership agreements. If a community does not agree,
then this will imperil the ability to meet the goal or call into question whether the goal is valid.
Where the Mission failed in this regard was in updating the goals in the projects; the Mission
should have been monitoring its performance against stated goals more closely and adjusting the
project goals, expenses, etc., as we acquired additional information and as appropriate.


2. Entities are not benefiting from partnerships as anticipated (page 7)

Management Comments: While the Mission concurs with this finding, its relevance is
somewhat questionable since this finding is “primarily caused by factors outside the Mission‟s
manageable interest...” (pg. 6, lines 2-3). While a mission must make adjustments in tactics when

                                                                                                 21
                                                                                       Appendix II


conditions warrant, it is also important to note that the conditions that make tactical adjustments
necessary will also constrain possible remedial action. It is to be expected and quite common
that one would not be able to predict all of the possible consequences of a program or decision in
advance, and that the situation on the ground could be either better or worse than originally
envisioned. As such, adjustments in tactics but also adjustments in expectations are necessary.
What makes a developing country a developing country is the fragility and lack of human
capacity in its institutions and, as such, expecting U.S. - like performance is unreasonable. By
contrast, if one asked USAID/Angola‟s partners, including the GRA, if they believe these
projects are very successful there answer would be a resounding „yes.‟ So much so that, in one
case, they have committed to replicating the project nationwide. Yes, it is true that the Mission
should definitely have documented the issues that impacted the goals and the tactics that were
being undertaken. However, sustainability of an activity is certainly a measure of success that
should and will be documented in the upcoming evaluation of one of the PPP activities.

GDAs and PPPs are implemented through Memoranda of Understanding (MOUs) and are neither
contracts nor grants in the normal USAID sense of the words. As the auditors are aware, MOUs
are statements of cooperation and are not legally binding. As such, partners are free to enter and
exit partnerships at will. When Lazar Kaplan International (LK) exited the partnership due to the
collapse of global diamond prices (their primary business), there was no obligation for either
USAID or Chevron to increase funding to the partnership. The partnership included
geographical foci for the specific partners, Chevron in the oil producing regions, and Lazar
Kaplan International in the diamond producing “Lundas.” In fact, part of the original
sustainability strategy in the Lundas was to include the local diamond company‟s foundation
Fundação Brilliante (FB), and efforts were made to incorporate FB into the partnership after
LK‟s departure. However, these efforts were unsuccessful and Chevron had no strategic interest
in the Lundas. This made spending in the Lundas “sunk costs” which are, by definition,
unrecoverable. There remained only three possible contingencies: one, for USAID and/or Exxon
to make up for the loss of funding; two, for USAID to seek an alternate partner; or three, to
reduce goals, expectations, etc., of the project. Since Chevron viewed working in the Lundas as
interfering in the territory of the diamond companies and, thus, had no interest in increasing
funding, and USAID was unable to gain the support of FB, then the only remaining options were
for USAID to increase funding and/or to reduce expectations and goals. It seems that both
options were pursued to some limited extent, but this would have also resulted in a funding ratio
of something other than 1:1.

Two other observations: over the life of the project, USAID increased its budget for Angola
substantially. If this funding increase was absorbed by projects within the partnership(s) and not
matched by additional funding from the partner then, even if a 1:1 match had been initially
created, that relationship would not persist, especially if budget increases continued over some
period of time. USAID/Angola did receive large funding increases, especially in PMI and HIV
programing. Secondly, the Mission did not adequately consider how to account for certain types
of in-kind contributions and will do a better job in the future.




                                                                                                22
                                                                                          Appendix II



3. USAID/Angola did not meet performance management requirements (page 9)

Management Comments: This statement is somewhat overstated. As to the specific
observation regarding site visits, we note that quarterly visits are impractical and, under current
Mission security considerations, trips have been practically impossible to all but a handful of
provinces. That notwithstanding, as soon as the RSO determines security considerations permit,
the Mission fully intends to conduct more site visits.

In addition, certain regions of the country are only accessible at certain times of the year (i.e., the
dry season) and, unfortunately, these times of the year also tend to be when major reporting
periods occur. Nearly all of the DQAs in question were scheduled for assessment at the same
time as the audit was scheduled; however, the audit took priority. Also, as programs were
extended, DQAs also became necessary which they were not, heretofore, because of the shorter
timeframe of the program. A three-year program may require only one DQA during its lifetime
but, as the final months of the program are evaluated, an extension may occur. This will then
necessitate a new DQA and the inadequacy of the initial DQA is simply an artifact of timing.
This occurred in one case where the DQA became invalid only for the last two months of the
program.

Mission Order 203 requires that AOTRs regularly conduct site visits and provides an illustrative
trip report template, but does not state that utilization of the provided template is mandatory and,
therefore, is the only format that can be used. As per COTR/AOTR training, handwritten notes
are treated as acceptable documentation for meeting acquisition and assistance monitoring
regulations. The Mission has completed a draft revision of Mission Order 203 on Performance
Monitoring and Evaluation. That new Mission Order will be finalized by a TDY from AFR/SA
staff, scheduled for arrival at post in mid-January.

It is true that the Mission was slow to respond to auditor requests. This is primarily because of
the timing of the audit, which coincided with the end of the fiscal year, and was compounded by
the general understaffing of the Mission.


4. USAID/Angola needs to ensure that program costs are reviewed (page 12)

Management Comments: The Mission concurs with this finding, and reminded staff of the
responsibility of the AOTR/COTR in this regard. The addition of new Program Assistants for
the PO and the GDO areas, as well as filling the currently vacant M&E Specialist position,
should help in addressing these shortfalls. These positions are under recruitment.


5. USAID/Angola did not ensure adequate branding and marking (page 14)

Management Comments: The Mission concurs with this finding and has noted this particular
problem. In several cases, branding requirements were not adequately stressed with partners nor
monitored by COTR/AOTRs. A very thorough branding training was conducted during the


                                                                                                    23
                                                                                         Appendix II


tenure of the previous DOC, however, it is clear that a new branding training is necessary. The
Mission has reminded its staff in writing of their responsibilities as recommended under
recommendation 9.

As to the marking of vehicles, ADS 320.3.1.2. Pre-award procedures specifically states
“marking ADS Chapter 320 is not required for implementing partners‟ offices, vehicles, and
items they procure for its own administrative use. See 22 CFR Part 226 and 320.3.5e.” ADS
chapter 320.3.2 Branding and Marking in USAID Direct Contracts notes that “Marking is not
required on contractor vehicles, offices, and office supplies or other commodities used solely for
administration of the USAID-funded program (see 320.3.5). Marking is not permitted on certain
contractor communications (see 320.3.1.5).” ADS chapter 320.3.3.1 Co-branding and Co-
marking also notes that “Marking is not required for recipient‟s offices, vehicles, and items the
recipient procures for its own administrative use (see 22 CFR Part 226.91 and 320.3.5)”, and
ADS chapter 320.3.5 Non-Applicability notes that this chapter does not apply to the following: e.
Contractor or recipient offices, vehicles, or non-deliverable items, such as office supplies used
primarily for administration of the USAID-funded program. (See 22 CFR 226.91; 320.3.1;
320.3.2; and 320.3.3.)

Corrections to the initial report
Pg. 5, Line 36. “… the program ending on December 31, 2011,….” should read “… the project
ending on December 31, 2011, ...”. However, this project has been extended, and therefore, the
question of sustainability may need to be deferred to a future date.

Recommendations

10. Designate an individual who is responsible for spearheading the Mission’s efforts to build
    and manage strategic partnerships, and maintaining the Mission’s relationship with the
    Office of Innovation and Development Alliances (page 9).

Management Comments: The Mission concurs with this recommendation and this designation
of responsibility will become part of the portfolio for the Senior Program Specialist (or M&E
specialist) position. The Mission is currently recruiting to fill that position, which was vacated in
2010. This person will also provide the Mission‟s response to recommendation 4 “develop and
implement a strategy for addressing performance management requirements, given the human
resources challenges within the Mission (page 12).” Since this person will be a locally eligible
staff (LES), this assignment should limit the impact of staffing issues related to U.S. Direct Hires
or third country nationals (TCNs). The position is expected to be filled by the end of February
2012.

11. Review Mission Order 203 on Performance Management and Evaluation and update it as
    necessary to address performance management requirements, including alternative
    monitoring activities to mitigate security constraints (page 11).

Management Comments: Mission Order 203 was under review/rewrite at the time of the audit;
however, that revision has not been completed since the reviewing officer is no longer at post.
The Mission has scheduled assistance to complete the revision in January from


                                                                                                  24
                                                                                          Appendix II


USAID/W/AFR/SA. The Mission Order will be updated to address these concerns, including the
frequency for site visits and an alternative method of review when security considerations do not
permit site visits, as well as documentation requirements. The Mission Order will be finalized
by the end of February 2012.

It is important to note that, partially in response to these audit findings, the Chief of Mission and
RSO are reconsidering the security policies at post to enable a case-by-case review of proposed
site visits, including a partial lifting of the “no fly” and “two car” rules. To take advantage of the
revised policy, the Mission is putting together a schedule of proposed site visits.

12. Remind Mission staff, in writing, of their responsibility to follow the guidance set forth in
    Mission Order 203 on Performance Management and Evaluation, until such guidance is
    superseded (page 12).

Management Comments: Mission Staff have been reminded in writing of their responsibility to
(1) “follow the guidance as set forth in Mission Order 203”; (2) “maintain adequate Agreement
Officer‟s Technical representative files (page 12)”; and (3) “ensure adherence with branding and
marketing requirements, in accordance with Automated Directive System 320 (page 15).” Email
communication sent on January 12, 2012.

13. Develop and implement a strategy for addressing performance management requirements,
    given the human resources challenges within the mission (page 12).

Management Comments: The Mission concurs with this recommendation and has provided its
response, strategy and plan under item 1.

14. Remind CLUSA, in writing, of its responsibility to report on progress toward its results,
    which includes reporting on its performance indicators on a quarterly basis (page 12).

Management Comments: The mission concurs with this recommendation, and said notification
was sent on October 13, 2011. CLUSA immediately took action by sending indicators that were
not included in the previous quarterly reports and have since been submitting their indicators on
a quarterly basis.

15. Remind Mission staff, in writing, of their responsibility to maintain adequate Agreement
    Officer’s Technical Representative files (page 12).

Management Comments: Staff has been reminded in writing to maintain adequate Agreement
Officer‟s Technical Representative Files (see recommendation 3). Email communication sent on
January 12, 2012.

16. Contract an independent accounting firm to conduct an agreed upon procedures engagement
    over the Municipal Development Program’s life of project expenditures (page 13).

Management Comments: Regional OAA, in consultation with OIG/Pretoria, crafted an agency
contracted audit with an independent audit firm to conduct an agreed upon procedures


                                                                                                   25
                                                                                      Appendix II


engagement over the Municipal Development Program‟s life of project expenditures. Mission
was successful in obtaining the required funds and the audit will be conducted in February 2012.


17. Through the agreement officer, remind CARE Angola, in writing, of their obligation to retain
    records supporting program expenditures for at least three years (page 14).

Management Comments: A letter reminding “CARE Angola, in writing, of their obligation to
retain records supporting program expenditures for at least three years (page 14)” was sent by the
agreement officer on November 21, 2011.

18. Remind its staff, in writing, of their responsibilities to ensure adherence with branding and
    marking requirements, in accordance with Automated Directives System 320 (page 15).

Management Comments: Staff has been reminded in writing of their responsibilities for
compliance with the ADS branding and marking requirements (see recommendation 3);
however, for a presentation of ADS requirements with respect to partner vehicles see response to
Finding 5 above. Email communication sent on January 12, 2012.




                                                                                               26
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
